Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  IMPROPER PAYMENTS FOR
     EVALUATION AND
   MANAGEMENT SERVICES
  COST MEDICARE BILLIONS
         IN 2010




                    Daniel R. Levinson
                     Inspector General

                       May 2014
                     OEI-04-10-00181
EXECUTIVE SUMMARY: IMPROPER PAYMENTS FOR EVALUATION AND
MANAGEMENT SERVICES COST MEDICARE BILLIONS IN 2010
OEI-04-10-00181

WHY WE DID THIS STUDY

Evaluation and management (E/M) services are visits performed by physicians and nonphysician
practitioners to assess and manage a beneficiary’s health. Medicare paid $32.3 billion for E/M
services in 2010, representing nearly 30 percent of Part B payments that year. In 2012, the Office
of Inspector General (OIG) reported that physicians increased their billing of higher level codes,
which yield higher payment amounts, for E/M services in all visit types from 2001 to 2010. The
Centers for Medicare & Medicaid Services (CMS) found that E/M services are 50 percent more
likely to be paid for in error than other Part B services; most improper payments result from errors
in coding and from insufficient documentation.

HOW WE DID THIS STUDY

We conducted a medical record review of a random sample of Part B claims for E/M services from
2010, stratifying claims from physicians who consistently billed higher level codes for E/M services
(i.e., “high-coding” physicians) and claims from other physicians. Certified professional coders
determined whether the E/M service documented in the medical record for each sampled claim was
correctly coded and/or sufficiently documented.

WHAT WE FOUND

In total, Medicare inappropriately paid $6.7 billion for claims for E/M services in 2010 that were
incorrectly coded and/or lacking documentation, representing 21 percent of Medicare payments for
E/M services that year. We found that 42 percent of claims for E/M services in 2010 were
incorrectly coded, which included both upcoding and downcoding (i.e., billing at levels higher and
lower than warranted, respectively), and 19 percent were lacking documentation. Additionally, we
found that claims from high-coding physicians were more likely to be incorrectly coded or
insufficiently documented than claims from other physicians.

WHAT WE RECOMMEND

We recommend that CMS (1) educate physicians on coding and documentation requirements for
E/M services, (2) continue to encourage contractors to review E/M services billed for by high-
coding physicians, and (3) follow up on claims for E/M services that were paid for in error. CMS
concurred with our first recommendation, did not concur with our second recommendation, and
partially concurred with our third recommendation
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings......................................................................................................11

           Fifty-five percent of claims for E/M services were incorrectly

           coded and/or lacking documentation in 2010, resulting in 

           $6.7 billion in improper Medicare payments .................................11

           Claims for E/M services billed for by high-coding physicians were 

           more likely to be incorrectly coded or insufficiently documented 

           than those billed for by other physicians .......................................14 

Conclusion and Recommendations ............................................................16 

           Agency Comments and Office of Inspector General Response.....18 

Appendixes ................................................................................................20 

           A: Components Used To Determine the Level of an Evaluation 

           and Management Service ...............................................................20 

           B: Additional Information on Sample Selection and 

           Subgrouping...................................................................................23 

           C: The Comprehensive Error Rate Testing Program and This

           Evaluation ......................................................................................27 

           D: Sample Sizes, Point Estimates, and Confidence Intervals of 

           Claims for Evaluation and Management Services .........................29 

           E: Sample Sizes, Point Estimates, Confidence Intervals, and 

           Results of Statistical Tests of Claims for Evaluation and 

           Management Services, by Stratum ................................................32 

           F: Sample Sizes, Point Estimates, Confidence Intervals, and 

           Results of Statistical Tests of Claims for Evaluation and 

           Management Services, by Subgroups ............................................35 

           G: Agency Comments ...................................................................37 

Acknowledgments......................................................................................40 

                   OBJECTIVE
                   To determine the extent to which evaluation and management (E/M)
                   services in 2010 were incorrectly coded and/or lacking documentation.

                   BACKGROUND
                   E/M services are visits covered under Medicare Part B and performed by
                   physicians and nonphysician practitioners (hereinafter, collectively
                   referred to as physicians) to assess and manage a beneficiary’s health.1
                   Medicare paid $32.3 billion for E/M services in 2010, representing nearly
                   30 percent of Part B payments that year.2, 3 E/M services are divided into
                   broad categories that reflect the type of service, the place of service, and
                   the patient’s status. These broad categories of E/M services are known as
                   visit types. Most visit types are further divided into three to five levels,
                   which reflect the complexity of a visit and correspond to Current
                   Procedural Terminology (CPT) codes for billing purposes.4, 5 Higher level
                   codes within a visit type correspond to increased complexity of the E/M
                   service and higher payment rates.6
                   In 2012, OIG reported that from 2001 to 2010, physicians increased their
                   billing of higher level codes for E/M services in all visit types.7
                   Additionally, OIG identified 1,669 physicians who consistently billed for
                   the two highest level codes for E/M services in 2010. Moreover, the

                   1
                     Nonphysician practitioners are health care providers (e.g., nurse practitioners, clinical 

                   nurse specialists, and physician assistants) who practice either in collaboration with a 

                   physician or under the supervision of a physician. 

                   2
                     Office of Inspector General (OIG) analysis of the 2010 National Claims History Part B 

                   file.

                   3
                     Medicare-allowed amounts are 100 percent of the payment made to a provider (e.g., 

                   a physician) by both Medicare and the beneficiary. Medicare pays 80 percent of allowed 

                   charges, and the beneficiary is responsible for the remaining 20 percent.

                   4
                     Certain visit types do not have complexity levels. These visit types are hospital 

                   observation discharge services (99217), standby services (99360), and other E/M services 

                   (99499).

                   5
                     The five character codes and descriptions included in this study are obtained from
                   Current Procedural Terminology (CPT®), copyright 2009 by the American Medical
                   Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                   and five character identifying codes and modifiers for reporting medical services
                   and procedures. Any use of CPT outside of this study should refer to the most
                   current version of the Current Procedural Terminology available from AMA.
                   Applicable FARS/DFARS apply.
                   6
                     Payment rates for E/M services are set forth by the Medicare physician fee schedule. 

                   Section 1848(a)(1) of the Social Security Act established this fee schedule as the basis for 

                   Medicare reimbursement for all physician services, including E/M services, beginning in

                   January 1992.

                   7
                     OIG, Coding Trends of Medicare Evaluation and Management Services 

                   (OEI-04-10-00180), May 2012. 


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)    1
                   Centers for Medicare & Medicaid Services (CMS) has reviewed the
                   appropriateness of claims for E/M services through the Comprehensive
                   Error Rate Testing (CERT) program.8 In its 2011 CERT report, CMS
                   found that E/M services made up a large proportion of Part B improper
                   payments and were 50 percent more likely to be paid for in error than
                   other Part B services.9 Most of these improper payments for E/M services
                   were due to incorrect coding and insufficient documentation.
                   Coding of E/M Services
                   E/M services must be medically reasonable and necessary, in addition to
                   meeting the individual requirements of the CPT code that is used on the
                   claim.10, 11 According to CMS, “[I]t would not be medically necessary or
                   appropriate to bill [for] a higher level of [E/M] service when a lower level
                   of service is warranted.”12 Physicians are responsible for ensuring that the
                   claims they submit to Medicare accurately reflect the E/M services
                   provided and the billing levels corresponding to those services.13
                   As defined by CPT, the level of an E/M service is determined by seven
                   components: patient history, physical examination, medical
                   decisionmaking, counseling, coordination of care, the nature of the
                   patient’s presenting problem(s), and time. The first three components are
                   key in determining the correct code for the E/M service:
                   	 Extent of patient history. Physicians use their clinical judgment and
                      the nature of the patient’s presenting problem(s) to determine the depth
                      of history needed to complete the service. A patient history can be
                      classified into one of four types, ranging from problem focused to
                      comprehensive.
                   	 Extent of physical examination. Physicians use their clinical judgment
                      and the presenting medical problem(s) to determine the type of
                      examination needed. There are four types of physical examinations,
                      ranging from problem focused to comprehensive.
                   	 Complexity of medical decisionmaking. The complexity of medical
                      decisionmaking hinges on the number of possible diagnoses or the


                   8
                     As a result of the Improper Payments Information Act (IPIA) of 2002, CMS established
                   the CERT program to randomly sample and review claims submitted to Medicare. 

                   9
                     CMS, Medicare Fee-for-Services 2011 Improper Payments Report, October 2012, 

                   pp. 32–33. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                   Systems/Monitoring-Programs/CERT/Downloads/MedicareFFS2011CERTReport.pdf on

                   October 21, 2013.

                   10
                      CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 12, § 30.6.1.A.

                   11
                      Social Security Act § 1862(a)(1)(A). 

                   12
                      CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 12, § 30.6.1.A.

                   13
                      CMS, Evaluation and Management Services Guide, December 2010, p. 4.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   2
                        number of options that must be considered; the amount and/or
                        complexity of medical records, diagnostic tests, and other information
                        that physicians must obtain, review, and analyze; and the risk of
                        significant complications, morbidity, and/or mortality. There are four
                        types of medical decisionmaking, ranging from straightforward to high
                        complexity.
                   For visits that consist predominantly of counseling or coordination of care,
                   time—rather than the three factors listed above—is the key factor in
                   determining the correct code for the E/M services.14 See Appendix A for
                   more detail on the components used to determine the level of an E/M
                   service.
                   Documentation of E/M Services
                   Physicians’ documentation must support the medical necessity and
                   appropriateness, as well as the level, of the E/M service.15, 16 Clear and
                   concise medical record documentation is required in order for physicians
                   to receive accurate and timely payment for furnished services.17 In the
                   medical record, physicians should document the care a patient received
                   and pertinent facts, findings, and observations about the patient’s health
                   history.18 The medical record should also be complete and legible and
                   include the date and legible identity of the physician who furnished the
                   service. Further, Medicare requires that services provided be
                   authenticated by the author of the medical record, with either a
                   handwritten or electronic signature.19 If the signature in the medical
                   record is illegible or missing, CMS asks the physician to “attest” to his/her
                   signature.20 If the physician does not provide this attestation statement,
                   CMS then considers the claim to be insufficiently documented.



                   14
                      If the level of an E/M service is based on counseling and/or coordination of care, the 

                   total length of time of the encounter should be documented and the medical record should

                   describe the counseling and/or activities to coordinate care. CMS, Evaluation and 

                   Management Services Guide, December 2010, pp. 21 and 25.

                   15
                      For Medicare to consider coverage and payment for any item or service, the 

                   information submitted by the supplier or provider must corroborate the documentation in 

                   the beneficiary’s medical record and confirm that Medicare coverage criteria have been

                   met. CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 3, § 3.3.2.1. See also 

                   Social Security Act § 1156(a).

                   16
                      The Social Security Act states that Medicare will not pay for services, including E/M 

                   services, unless the provider has furnished information necessary to support the claim.

                   Social Security Act § 1833(e).

                   17
                      CMS, Evaluation and Management Services Guide, December 2010, p. 3. 

                   18
                      Ibid. pp. 3–4.

                   19
                      Stamped signatures are not acceptable. CMS, Medicare Program Integrity Manual, 

                   Pub. 100-08, ch. 3, § 3.3.2.4.

                   20
                      Ibid.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   3
                   The documentation in the medical record must also support the type of
                   each key component used to determine the appropriate level of E/M
                   service. CMS has issued guidelines for physicians to use when
                   determining and documenting the appropriate level of an E/M service.
                   These guidelines outline what documentation is necessary to include in the
                   medical record to support the level of an E/M service. There are two
                   versions of the documentation guidelines, one from 1995 and one from
                   1997.21, 22 There are differences between these two versions, the most
                   substantial being in the section regarding physical examinations.23
                   Physicians can use either version of the documentation guidelines, but not
                   a combination of the two, to determine the appropriate level for an E/M
                   service.24 However, to document E/M services provided on or after
                   September 2013, physicians may use the 1997 Documentation Guidelines
                   for an extended history of present illness along with other elements from
                   the 1995 Documentation Guidelines.25
                   Related OIG Work
                   This study is part of a larger body of work about E/M services. The first
                   study in this series found that from 2001 to 2010, physicians increased
                   their billing of higher level codes for E/M services in all visit types. 26
                   Additionally, 1,669 physicians consistently billed for the two highest level
                   codes for E/M services in 2010. The second study looked at the adoption
                   of electronic health record (EHR) technology, finding that 57 percent of
                   physicians who provided E/M services in 2010 used an EHR system at
                   their primary practice locations in 2011.27
                   In 2006, OIG reported that 75 percent of consultations—which are one
                   type of E/M service—did not meet Medicare coverage requirements in

                   21
                      The full names of these publications are the 1995 Documentation Guidelines for 

                   Evaluation and Management Services and the 1997 Documentation Guidelines for 

                   Evaluation and Management Services. They can be found online at http://www.cms.gov/

                   Outreach-and-Education/Medicare-Learning-Network-MLN/MLNEdWebGuide/

                   Downloads/95Docguidelines.pdf and http://www.cms.gov/Outreach-and-Education/

                   Medicare-Learning-Network-MLN/MLNEdWebGuide/Downloads/97Docguidelines.pdf, 

                   respectively.

                   22
                      Hereinafter, we refer to these two versions of documentation guidelines as the 

                   1995 Documentation Guidelines and the 1997 Documentation Guidelines.

                   23
                      CMS, Evaluation and Management Services Guide, December 2010, p. 13.

                   24
                      Ibid., pp. 1 and 13. 

                   25
                      CMS, FAQ on 1995 & 1997 Documentation Guidelines for Evaluation & Management

                   Services, September 2013. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-
                   Service-Payment/PhysicianFeeSched/Downloads/EM-FAQ-1995-1997.pdf on January 

                   10, 2014.

                   26
                      OIG, Coding Trends of Medicare Evaluation and Management Services 

                   (OEI-04-10-00180), May 2012.

                   27
                      OIG, Use of Electronic Health Record Systems in 2011 Among Medicare Physicians

                   Providing Evaluation and Management Services (OEI-04-10-00184), June 2012.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   4
                   2001, resulting in $1.1 billion in improper payments.28 OIG also found
                   that consultations billed for at the highest level were miscoded 95 percent
                   of the time. In 2010, CMS discontinued paying for CPT codes for
                   consultations.29

                   METHODOLOGY
                   We based this study on a medical record review of a random sample of
                   Part B claims for E/M services from 2010.
                   Selection of Sample for Medical Review
                   Using CMS’s National Claims History File, we identified all Part B claims
                   for E/M services with a service date in 2010 and a Medicare payment
                   amount greater than zero.30 We limited our analysis to E/M services that
                   corresponded to visit types with three to five complexity levels.31 We also
                   limited our analysis to physicians who had claims for 100 or more E/M
                   services in 2010.32 Therefore, our sampling frame consisted of
                   369,629,103 claims for E/M services and represented $32.3 billion in
                   Medicare payments.
                   We grouped claims into two strata defined by physicians’ coding of E/M
                   services.
                   	 Stratum 1 consisted of 828,646 claims from physicians we categorized
                      as “high-coding physicians.” To identify high-coding physicians, we
                      (1) identified physicians whose average code level was in the top
                      1 percent of their primary specialty; and (2) from that subset of
                      physicians, identified those that billed for the two highest level codes
                      for E/M services at least 95 percent of the time.
                   	 Stratum 2 consisted of 368,800,457 claims for E/M services from
                      physicians we categorized as “other physicians.” These physicians did
                      not meet the criteria used to identify high-coding physicians.




                   28
                      OIG, Consultations in Medicare: Coding and Reimbursement (OEI-09-02-00030), 

                   March 2006.

                   29
                      74 Fed. Reg. 61738, 61768–69 (Nov. 25, 2009).

                   30
                      Typically, a set of services is billed for on one Part B claim; each service is listed as a

                   separate line item on that claim. For the purposes of this report, we refer to claim line 

                   items as claims.

                   31
                      The sampling frame includes claims with CPT codes 99201–99205, 99211–99215, 

                   99218–99223, 99231–99236, 99241–99245, 99251–99255, 99281–99285, 99304–99310, 

                   99324–99328, 99334–99337, 99341–99346, and 99347–99350.

                   32
                      Claims submitted by physicians with fewer than 100 E/M services represented less 

                   than 2 percent of Medicare payments in 2010 and 30 percent of all physicians who billed 

                   for E/M services.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)      5
                   We then selected a stratified simple random sample of 673 claims
                   (309 from stratum 1 and 364 from stratum 2). See Tables B-1 and B-2 in
                   Appendix B for further details on this study’s sample selection.
                   Medical Record Review
                   We used a contractor to collect and review for completeness the medical
                   records for each sampled claim. The contractor mailed up to three
                   requests to obtain the medical records and telephoned nonresponding
                   physicians to ensure they had received the requests. The final request was
                   sent by certified mail, which requires a signature.
                   We did not receive medical records for 55 claims:
                   	 We classified 39 of these claims as undocumented errors, either
                      because the physician received our request but did not respond to it or
                      because the documentation that the physician sent did not contain any
                      information relevant to our sampled claim.
                   	 We classified the remaining 16 claims as nonrespondents because we
                      did not receive responses and were unable to confirm that the
                      physicians had received our requests.33 Three of these claims were
                      associated with physicians whose national provider identifiers had
                      been deactivated.
                   Overall, we received the medical records for, or classified as errors, 657 of
                   the 673 sampled claims, for a weighted response rate of 98.6 percent.34
                   The response rate for stratum 1 was 96.4 percent,35 and the response rate
                   for stratum 2 was 98.6 percent.36 Hereinafter, projections to our
                   population and strata are based on these response rates. Table 1 shows the
                   number of sampled claims, respondent claims, and response rate by
                   stratum and overall.




                   33
                      We will refer a list of nonresponding physicians to CMS.
                   34
                      Overall results are projectable to 98.6 percent of the population of Medicare claims for
                   E/M services in 2010, representing $31.5 billion of $32.3 billion.
                   35
                      Results for stratum 1 are projectable to 96.4 percent of Medicare claims for E/M
                   services billed for by high-coding physicians, representing $104 million of $108 million.
                   36
                      Results for stratum 2 are projectable to 98.6 percent of Medicare claims for E/M
                   services billed for by other physicians, representing $31.4 billion of $32.2 billion.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   6
                    Table 1: Sampled Claims and Response Rate by Stratum, 2010

                                                                                       Number of    Number of
                                                                                                                Response
       Stratum        Description                                                       Sampled    Respondent
                                                                                                                    Rate
                                                                                         Claims        Claims


                      Claims for E/M services billed for by high-coding
       1                                                                                    309           298       96.4%
                      physicians



       2              Claims for E/M services billed for by other physicians                364           359       98.6%


           Total                                                                            673           657       98.6%

       Source: OIG analysis of 2010 Part B claims for outpatient E/M services, 2013.

                    We also contracted with three certified professional coders (hereinafter,
                    referred to as reviewers), each of whom had experience reviewing claims
                    for E/M services. In addition, we contracted with a registered nurse to
                    assist with determinations on whether documentation supported medical
                    necessity. The reviewers independently reviewed a set of records and
                    consulted with the nurse as needed. The reviewers completed a
                    standardized data-collection instrument that was based on Medicare
                    coverage and documentation requirements for E/M services and applied
                    relevant local coverage determinations, as appropriate.37 Applying both
                    the 1995 and 1997 Documentation Guidelines, reviewers determined the
                    appropriate level for an E/M service using whichever version of the
                    documentation guidelines resulted in the most advantageous code for the
                    physician. We developed the instrument in collaboration with the
                    reviewers and tested it on a separate sample of claims.38
                    The reviewers conducted the medical review between October 2012 and
                    May 2013. The reviewers determined whether the E/M service
                    documented in the medical record for each sampled claim was correctly
                    coded and/or sufficiently documented.
                    	 Reviewers classified sampled claims for E/M services as incorrectly
                       coded if the medical record supported a lower or higher level code
                       (i.e., “miscoded”) or if there were other coding errors, such as


                    37
                       Medicare claims processing contractors develop their own coverage guidelines (i.e.,
                    local coverage determinations) regarding medical necessity, if no national coverage
                    determination exists. Section 522 of the Benefits Improvement and Protection Act of
                    2000 defines a local coverage determination as a decision by a Medicare claims
                    processing contractor whether to cover a particular service on an intermediary-wide or
                    carrier-wide basis in accordance with section 1862(a)(1)(A) of the Social Security Act
                    (e.g., a determination as to whether the service or item is reasonable and necessary).
                    38
                       We conducted a preliminary review of 10 claims for E/M services to test the
                    instrument and to ensure consistency among the reviewers. These 10 claims were not
                    included in our sample.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)       7
                        documentation supporting a code for a non-E/M service (i.e., “wrong
                        code”) or if the medical record indicated unbundling.39
                   	 Reviewers classified sampled claims for E/M services as insufficiently
                      documented if the medical record (1) did not contain pertinent
                      information to support the service provided (e.g., the patient’s name
                      and status, overall condition and diagnosis, and the extent of services
                      performed), (2) did not support the medical necessity of the service
                      provided, and/or (3) was illegible.40 Reviewers also identified
                      sampled claims for E/M services for which the physicians’ signatures
                      were illegible, missing, or unacceptable (e.g., typed name with no
                      initials or signature). CMS provides physicians with an opportunity to
                      attest to a signature when it is illegible or missing. Because we did not
                      request signature attestations from physicians, claims for E/M services
                      with only signature issues were not considered to be in error.41
                   Our contractor and reviewers also collected information on whether the
                   medical record for the sampled claim was (1) paper or electronic
                   (i.e., medical record type) and (2) formatted using the 1995 or 1997
                   Documentation Guidelines (i.e., medical record format). See Tables B-3
                   and B-4 in Appendix B for further details on this study’s subgrouping.
                   Analysis
                   We analyzed the information from the medical record review to determine
                   the percentage of claims for E/M services in 2010 that were incorrectly
                   coded and/or lacking documentation overall, by stratum, and by subgroup.
                   For miscoded claims, we compared the original code from the sampled

                   39
                      “Unbundling” is the practice of inappropriately reporting each component of a service
                   or procedure instead of reporting the single comprehensive code. CMS does not allow
                   additional payments for separate E/M services performed by a physician on the same day
                   as a procedure, unless the E/M service is significant, is separately identifiable, and is
                   above and beyond the usual preoperative and postoperative care associated with the
                   procedure, indicated by modifier 25 on the claim. We considered claims to be in error if
                   modifier 25 was listed on the claim and the medical record did not support that the E/M
                   service was significant, was separately identifiable, and was above and beyond the usual
                   preoperative and postoperative care associated with the procedure.
                   40
                      We did not request documentation needed to determine whether guidelines were met
                   for “incident to” and “split/shared” billing and resident/teaching physician arrangements.
                   As a result, we did not consider these claims to be in error if certain documentation was
                   missing. However, we did consider these claims to be in error if the errors were
                   discernible. For example, an office visit with a new patient cannot be performed
                   “incident to”; it would be considered an error if auxiliary personnel or a nonphysician
                   practitioner was documented in the medical record as having provided the service and it
                   was then billed for by the physician. CMS, Medicare Benefit Policy Manual,
                   Pub. 100-02, ch. 15, § 60.1.B. See also First Coast Service Options, Inc., Billing
                   physician assistant services ‘incident to’ a doctor FAQ. Accessed at
                   http://medicare.fcso.com/FAQs/Answers/157191.asp on December 18, 2013.
                   41
                      Thirteen percent of claims for E/M services in 2010 had illegible, missing, or
                   unacceptable signatures and no other errors.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   8
                   claim with the correct code. When the correct code was lower than the
                   code originally billed for, we considered the claim to be upcoded.
                   Conversely, when the correct code was higher than that originally billed
                   for, we considered the claim to be downcoded.42 We determined whether
                   differences in error rates were statistically significant between strata and
                   subgroups.43 For the subgroups of medical record type and format,
                   differences for all error rates were not statistically significant at the
                   95-percent confidence level.44
                   We also calculated the projected amount that Medicare inappropriately
                   paid in 2010 for claims for E/M services that were incorrectly coded
                   and/or lacking documentation overall and by stratum. For miscoded
                   claims (including those with an insufficient-documentation error), we
                   considered as inappropriate the net difference between the amount that
                   was paid and the amount that should have been paid. For all other errors,
                   we considered the entire Medicare payment amount from the sampled
                   claim to be inappropriate.
                   The CERT Program and This Evaluation
                   This evaluation is not designed to reproduce or review the findings
                   reported through the CERT program. CMS reported on E/M services
                   through its CERT program in 2011 and 2012. Further, our review and the
                   results reported through the CERT program should not be directly
                   compared because the goals and methodologies of each review are
                   different. The goal of the CERT program is to measure the performance of
                   CMS’s contractors by calculating a paid-claims error rate, while the
                   objective for this OIG study was to determine specifically whether E/M
                   services billed to Medicare in 2010 were incorrectly coded and/or lacking
                   documentation overall, by stratum, and by subgroup. Our evaluation thus
                   provides greater depth of information specific to E/M services than the
                   CERT program offers. Additionally, CMS bases error rates on dollars and
                   number of services, whereas our review bases the error rate on the number


                   42
                      Reviewers identified eight claims for E/M services for which the medical record
                   supported a code for a different visit type than that originally billed by the physician. We
                   considered these claims to be miscoded. If the payment rate for the correct code was
                   lower than the payment rate for the code originally billed, we considered the claim to be
                   upcoded. Similarly, we considered the claim to be downcoded if the payment rate for the
                   correct code was higher than the payment rate for the code originally billed by the
                   physician.
                   43
                      We used an independent group t-test to determine whether differences in error rates
                   between strata were statistically significant. We used a Rao-Scott chi-square test to
                   determine whether differences in error rates between subgroups were statistically
                   significant.
                   44
                      See Appendix F for sample sizes, point estimates, confidence intervals, and results of
                   statistical tests.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)    9
                   of claims. For more information on the CERT program and how it relates
                   to this evaluation, see Appendix C.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   10
                    FINDINGS
                    Fifty-five percent of claims for E/M services were
                    incorrectly coded and/or lacking documentation in
                    2010, resulting in $6.7 billion in improper Medicare
                    payments
                    According to our medical record review, 55 percent of claims for E/M
                    services in 2010 were incorrectly coded and/or lacking documentation.
                    Medicare inappropriately paid $6.7 billion for these claims, representing
                    21 percent of Medicare payments for E/M services in 2010. In particular,
                    26 percent were upcoded and 15 percent were downcoded. Additionally,
                    nearly 7 percent of claims for E/M services in 2010 were both incorrectly
                    coded and insufficiently documented. Table 2 shows the percentage of
                    erroneous claims for E/M services and payments in error. See Appendix D
                    for point estimates and confidence intervals.
                    Table 2: Percentage of and Medicare Payments for Claims for E/M
                    Services in Error, 2010

                                                                               Percentage of Claims               Medicare Payments
         Type of Error
                                                                                   for E/M Services                      (in Billions)


         Incorrectly Coded                                                   42.4%                            $3.3

                 -Miscoded                                                             40.4%                            $2.8

                          - Upcoded                                                              26.0%                              $4.6

                          - Downcoded                                                            14.5%                             ($1.8)
                 - Other Coding Error (e.g., Wrong Code,
                                                                                        2.0%                            $0.5*
                    Unbundling)
         Lacking Documentation                                               19.0%                            $4.6

                 - Insufficiently Documented                                           12.0%                            $2.6

                 - Undocumented                                                         7.0%                            $2.0

         Overall Gross**                                                     61.3%                            $7.9

         Overlapping                                                         (6.7%)                          ($1.1)

         Overall Net**                                                       54.6%                            $6.7
         *The 95-percent confidence interval for this point estimate was $80,378,029 to $829,370,881. Because few sampled claims for

         E/M services in 2010 fell into the category of “other coding error,” the confidence interval for this estimate was wide. 

         **The column sum of certain percentages and dollar figures does not equal the overall gross or net totals because of rounding. 

         Source: OIG analysis of 2010 E/M medical records, 2014. 



                    Most (79 percent of) miscoded claims were upcoded or downcoded by one
                    level; however, 17 percent and 4 percent of claims were upcoded and
                    downcoded, respectively, by two levels. A small percentage (0.8 percent)
                    of claims were upcoded by three levels, and an even smaller percentage
                    (0.004 percent) were upcoded by four levels. No claims in our sample
                    were downcoded by three or four levels.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                             11
                   Twenty-six percent of claims for E/M services were upcoded
                   Twenty-six percent of claims for E/M services were upcoded in 2010.
                   That is, a lower level code would have been more appropriate for the E/M
                   service documented in the medical record than the code billed for by the
                   physician. For example, for one claim in our sample, the physician billed
                   for code 99215 (the highest level code for the visit type “established
                   patient office/outpatient visit”); however, the medical record supported a
                   lower level code, 99213.45 For this visit type, at least two of the three key
                   components must be documented in order to bill for a specific level of
                   E/M service. For 99215 to have been appropriate, the medical record
                   should have contained documentation to support at least two of the
                   following: a comprehensive patient history, a comprehensive
                   examination, and medical decisionmaking of high complexity.46 For this
                   sampled claim, the medical record contained documentation that
                   supported only an expanded problem-focused examination and medical
                   decisionmaking of moderate complexity.47
                   Fifteen percent of claims for E/M services were downcoded
                   Fifteen percent of claims for E/M services were downcoded in 2010. That
                   is, a higher level code would have been more appropriate for the E/M
                   service documented in the medical record than the code billed for by the
                   physician. For example, for one claim in our sample, the physician billed
                   for code 99213 (the middle-level code for the visit type “established
                   patient office/outpatient visit”); however, the medical record supported a
                   higher level code (99214).48 The documentation in the medical record for
                   this sampled claim supported a comprehensive patient history, a detailed
                   examination, and medical decisionmaking of moderate complexity. For
                   99213 to have been appropriate, the medical record should have contained
                   documentation to support at least two of the following: an expanded
                   problem-focused patient history, an expanded problem-focused
                   examination, and medical decisionmaking of low complexity.49




                   45
                      See footnote 5 for the AMA copyright notice.

                   46
                      Ibid.

                   47
                      No patient history was documented in the medical record for this sampled claim.

                   However, this claim was not considered insufficiently documented for this missing

                   patient history, because the other two key components were sufficiently documented and 

                   at least two of the three key components must be documented in order to bill for a

                   specific level of E/M service for this visit type.

                   48
                      See footnote 5 for the AMA copyright notice.

                   49
                        Ibid.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   12
                   Two percent of claims for E/M services had other coding errors
                   Two percent of claims for E/M service in 2010 had coding errors other
                   than upcoding or downcoding. These errors included wrong codes (i.e.,
                   when the documentation in the medical record supported codes for
                   non-E/M services)—and unbundling (i.e., the practice of inappropriately
                   reporting each component of a service or procedure instead of reporting
                   the single, comprehensive code). For example, one claim in our sample
                   contained documentation that supported a procedure but not a significant,
                   separately identifiable E/M service. In another example, the medical
                   record for a claim in our sample stated that the beneficiary had received an
                   injection; the record did not contain any documentation to support the E/M
                   service for which the physician had billed.
                   Twelve percent of claims for E/M services were insufficiently
                   documented
                   The documentation in the medical record must support the medical
                   necessity and appropriateness, as well as the level, of the E/M service.
                   Twelve percent of claims for E/M services were insufficiently documented
                   in 2010. The documentation in the medical record must also support the
                   type of each key—and, if applicable, contributory—component used to
                   determine the appropriate level of E/M service. For example, the level of
                   the E/M service for one insufficiently documented claim in our sample
                   was based on counseling and/or coordination of care; however, only the
                   length of time of the encounter was documented in the medical record.
                   The medical record contained no description of the counseling and/or
                   activities to coordinate care, as required by Medicare.
                   Seven percent of claims for E/M services were undocumented
                   Physicians must provide documentation upon request to support claims for
                   Medicare services. Seven percent of claims for E/M services were
                   undocumented in 2010. For these undocumented claims, either the
                   physician received our request but did not respond to it or the
                   documentation that the physician sent did not contain any information
                   relevant to our sampled claim.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   13
                   Claims for E/M services billed for by high-coding
                   physicians were more likely to be incorrectly coded or
                   insufficiently documented than those billed for by
                   other physicians
                   High-coding physicians are defined as (1) physicians whose average code
                   level was in the top 1 percent of their specialty; and (2) from that subset of
                   physicians, those that billed for the two highest level codes for E/M
                   services at least 95 percent of the time.
                   Claims for E/M services billed for by high-coding physicians were more
                   likely to be incorrectly coded than those billed for by other physicians.
                   	 Fifty-six percent of claims for E/M services billed for by high-coding
                      physicians in 2010 were incorrectly coded. Medicare inappropriately
                      paid $26 million for these claims, representing 25 percent of total
                      Medicare payments for E/M services billed for by high-coding
                      physicians in 2010. Medicare inappropriately paid an average of
                      $15,594 per high-coding physician in 2010 for incorrectly coded
                      claims for E/M services.50 Ninety-nine percent of miscoded claims for
                      E/M services billed for by high-coding physicians in 2010 were
                      upcoded, while less than 1 percent were downcoded.
                   	 Forty-two percent of claims for E/M services billed for by other
                      physicians were incorrectly coded. Medicare inappropriately paid
                      $3.2 billion for these claims, representing 10 percent of total Medicare
                      payments for E/M services billed for by other physicians in 2010.
                      Medicare inappropriately paid an average of $7,348 per other
                      physician in 2010 for incorrectly coded claims for E/M services.51
                      Sixty-four percent of miscoded claims for E/M services billed for by
                      other physicians in 2010 were upcoded, while 36 percent were
                      downcoded.
                   Figure 1 shows the percentage of upcoded claims, shown as positive, and
                   downcoded claims, shown as negative, for E/M services by stratum and
                   level. See Appendix E for point estimates, confidence intervals, and
                   results of statistical tests.




                   50
                      To determine the average amount Medicare inappropriately paid for incorrectly coded
                   claims for E/M services per high-coding physician, we divided $26 million by the total
                   number of physicians in stratum 1 (i.e., 1,669).
                   51
                      To determine the average amount Medicare inappropriately paid for incorrectly coded
                   claims for E/M services per other physician, we divided $3.2 billion by the total number
                   of physicians in stratum 2 (i.e., 440,321).

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   14
Figure 1: Percentage of Upcoded and Downcoded Claims for E/M Services by Stratum and
Level, 2010




                   Source: OIG analysis of 2010 E/M medical records, 2014.

                   Additionally, claims for E/M services billed for by high-coding physicians
                   were more likely to be insufficiently documented than those billed for by
                   other physicians. Twenty percent of claims for E/M services billed for by
                   high-coding physicians were insufficiently documented, compared to
                   12 percent of those billed for by other physicians. The difference in error
                   rates for undocumented claims by stratum was not statistically significant
                   at the 95-percent confidence level. See Table E-3 in Appendix E.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   15
                   CONCLUSION AND RECOMMENDATIONS
                   In 2010, Medicare paid $32.3 billion for E/M services. In 2012, OIG
                   reported that from 2001 to 2010, physicians increased their billing of
                   higher level codes for E/M services in all visit types. CMS also found
                   through its CERT program that E/M services are 50 percent more likely to
                   be paid for in error than other Part B services; most improper payments
                   result from errors in coding and from insufficient documentation.
                   In total, Medicare inappropriately paid $6.7 billion for claims for E/M
                   services in 2010 that were incorrectly coded and/or lacking
                   documentation, representing 21 percent of Medicare payments for E/M
                   services that year. Our medical record review found that 42 percent of
                   claims for E/M services in 2010 were incorrectly coded, which included
                   both upcoding and downcoding, and 19 percent of claims for E/M services
                   were lacking documentation. Additionally, we found that claims from
                   high-coding physicians were more likely to be incorrectly coded or
                   insufficiently documented than claims from other physicians.
                   Collectively, our findings highlight errors associated with E/M services
                   that must be addressed to properly safeguard Medicare. Even though
                   Medicare payment rates for individual E/M services are small (about
                   $100 on average), 370 million E/M services were billed for by physicians
                   in 2010 and accounted for nearly 30 percent ($32.3 billion of $110 billion)
                   of Part B payments that year. Given the substantial spending on E/M
                   services and the prevalence of error, CMS must use all of the tools at its
                   disposal to more effectively identify and eliminate improper payments
                   associated with E/M services.
                   We recommend that CMS:
                   Educate physicians on coding and documentation
                   requirements for E/M services
                   CMS should educate physicians on coding and documentation
                   requirements for E/M services, either directly or through its contractors.
                   Specifically, CMS should educate physicians on the components used to
                   determine the level of an E/M service and emphasize the documentation
                   needed in the medical record to support that level. CMS should also
                   review its current materials for educating physicians regarding the coding
                   and documentation of E/M services and determine whether any revisions
                   or updates are needed.
                   Continue to encourage contractors to review E/M services
                   billed for by high-coding physicians
                   As part of its efforts to address recommendations made in the OIG report
                   Coding Trends of Medicare Evaluation and Management Services

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   16
                   (OEI-04-10-00180), CMS directed its contractors to consider high-coding
                   physicians as they prioritize their medical review strategies. Toward that
                   end, CMS should continue to encourage its contractors to focus medical
                   record reviews of E/M services on claims from high-coding physicians,
                   including those identified in this review and through analysis of
                   subsequent years of claims data. We acknowledge that CMS and its
                   contractors must weigh the costs and benefits of reviewing claims for E/M
                   services against doing so for more costly Part B services. However, by
                   applying our criteria and focusing medical record review on high-coding
                   physicians, CMS and its contractors would be more likely to identify
                   errors and improper payments, thereby making reviews of E/M services
                   more cost effective.
                   Follow up on claims for E/M services that were paid for in error
                   In a separate memorandum, we will refer to CMS for appropriate action
                   the sampled claims for E/M services that were incorrectly coded and/or
                   lacking documentation. CMS should make payment adjustments, as
                   appropriate, to include following up on both overpayments and
                   underpayments.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   17
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our first recommendation, did not concur with our
                   second recommendation, and partially concurred with our third
                   recommendation.
                   With regard to our first recommendation, CMS concurred and agrees that
                   physician education and outreach are critical parts of an effective
                   enforcement strategy. CMS will continue to issue education documents on
                   E/M services and will collaborate with contractors to respond to questions
                   and clarify policies when inconsistencies in billing practices arise.
                   With regard to our second recommendation, CMS did not concur. CMS
                   directed a medical review contractor to review claims billed by high-
                   coding physicians that were previously referred by OIG, and the first
                   phase of these reviews resulted in a negative return on investment. On the
                   basis of the results of additional reviews, CMS will reassess the
                   effectiveness of reviewing claims billed by high-coding physicians as
                   compared to other efforts, such as Comparative Billing Reports. We
                   acknowledge that CMS must weigh the costs and benefits of reviewing
                   claims for E/M services against doing so for more costly Part B services;
                   however, we continue to believe that CMS should focus its medical review
                   efforts on those services billed for by high-coding physicians, as these
                   claims are more likely to be in error than claims for E/M services billed
                   for by other physicians. We also encourage CMS to use other efforts, such
                   as Comparative Billing Reports, that aim to reduce the high error rate
                   associated with claims for E/M services billed for by high-coding
                   physicians.
                   With regard to our third recommendation, CMS partially concurred. CMS
                   will analyze each overpayment to determine which claims exceed its
                   recovery threshold and can be collected consistent with its policies and
                   procedures. For the overpayments identified in this report that will not be
                   collected, CMS could send an educational notice to physicians that billed
                   for these claims. These notices could describe the type of error identified,
                   explain the reason the overpayment is not being recovered, and provide
                   information on how to correctly bill for future E/M services. We will send
                   information to CMS regarding the improper payments identified in this
                   report under separate cover.
                   We removed a fourth recommendation listed in our draft report—for CMS
                   to consolidate the 1995 and 1997 Documentation Guidelines for
                   Evaluation and Management Services—because we did not determine
                   whether the errors we identified resulted from having two versions of


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   18
                   documentation guidelines. However, having two versions of
                   documentation guidelines may be confusing for physicians and could
                   contribute to the high error rate associated with E/M services.
                   We support CMS’s efforts to address these issues and encourage continued
                   progress. For the full text of CMS’s comments, see Appendix G.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   19
                   APPENDIX A
                   Components Used To Determine the Level of an Evaluation
                   and Management Service
                   As defined by the Current Procedural Terminology52 manual, the codes for
                   E/M services, which correspond to three to five levels within a visit type,
                   include seven basic components: patient history, physical examination,
                   medical decisionmaking, counseling, coordination of care, the nature of
                   the patient’s presenting problem (i.e., the reason for the visit), and time.
                   The first three components are key to determining the correct code for the
                   E/M service, and the remaining four components are contributory.53 The
                   physician must use the following three key components to determine the
                   appropriate code:
                   	 Extent of patient history—Using their clinical judgment, physicians
                      assess the nature of the patient’s presenting problems to determine the
                      depth of the history needed to complete the service. A patient history
                      can be classified into one of four types:
                            o	 problem focused (brief history of present illness or problem);
                            o	 expanded problem focused (brief history of present illness with
                               problem-pertinent system review);
                            o	 detailed (extended history of present illness with pertinent past,
                               family, and social history directly related to the presenting
                               problem; includes review of a limited number of additional
                               systems); and
                            o	 comprehensive (extended history of present illness with review
                               of body systems directly related to the patient’s problems;
                               complete past, family, and social history).




                   52
                      The five character codes and descriptions included in this study are obtained from
                   Current Procedural Terminology (CPT®), copyright 2009 by the American Medical
                   Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                   and five character identifying codes and modifiers for reporting medical services
                   and procedures. Any use of CPT outside of this study should refer to the most
                   current version of the Current Procedural Terminology available from AMA.
                   Applicable FARS/DFARS apply.
                   53
                      Exceptions to this rule are visits that consist predominantly of counseling or
                   coordination of care; time is the key factor to determining the correct code for these E/M
                   services. If the level of an E/M service is based on counseling and/or coordination of
                   care, the total length of time of the encounter should be documented and the medical
                   record should describe the counseling and/or activities to coordinate care. CMS,
                   Evaluation and Management Services Guide, December 2010, pp. 21 and 25.

Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   20
                   	 Extent of physical examination—Using their clinical judgment and
                      depending on the presenting medical problems, physicians can
                      perform one of four types of examination:
                            o	 problem focused (limited examination of the affected body area
                               or organ system);
                            o	 expanded problem focused (limited examination of affected area
                               or systems with other symptomatic or related organ systems);
                            o	 detailed (extended examination of affected body area and other
                               related systems); and
                            o	 comprehensive (a general multisystem examination or a
                               complete examination of a single organ system).
              	 Complexity of the physician’s medical decisionmaking—The complexity
                 of the physician’s medical decisionmaking is based on factors needed to
                 establish a diagnosis and/or select a management option: the number of
                 possible diagnoses or the number of options that must be considered; the
                 amount and/or complexity of medical records, diagnostic tests, and other
                 information that physicians must obtain, review, and analyze; and the risk
                 of significant complications, morbidity, and/or mortality. Four types of
                 medical decisionmaking are recognized:
                            o	 straightforward,
                            o	 low complexity,
                            o	 moderate complexity, and
                            o	 high complexity.
                   Table A-1 illustrates the key components used to determine the appropriate
                   code for a new patient office visit. There are five levels of complexity for
                   this office visit.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   21
                      Table A-1: Key Components Used To Determine the Level and CPT Code
                      for New Patient Office Visit

                                                                                              Key Components
 CPT
                                               Presenting Problem(s)                                                    Medical
 Code*                                                                      Patient History      Examination
                                                                                                                Decisionmaking

                Self-limited or minor; the physician typically spends 10
 99201                                                                      Problem focused   Problem focused    Straightforward
                     minutes face-to-face with the patient and/or family

              Low to moderate severity; the physician typically spends            Expanded          Expanded
 99202                                                                                                           Straightforward
                20 minutes face-to-face with the patient and/or family      problem focused   problem focused

                  Moderate severity; the physician typically spends 30
 99203                                                                             Detailed          Detailed    Low complexity
                   minutes face-to-face with the patient and/or family

              Moderate to high severity; the physician typically spends                                               Moderate
 99204                                                                      Comprehensive      Comprehensive
                45 minutes face-to-face with the patient and/or family                                               complexity

              Moderate to high severity; the physician typically spends
 99205                                                                      Comprehensive      Comprehensive     High complexity
                60 minutes face-to-face with the patient and/or family
*See footnote 52 for the AMA copyright notice. 

Source: CMS, Evaluation & Management Services Guide 2010, December 2010.





 Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)            22
                   APPENDIX B
                   Additional Information on Sample Selection and Subgrouping

                   Table B-1: Population and Sample Size of Claims for E/M Services by Stratum, 2010

                                                                                         Population                                  Sample
              Stratum       Definition
                                                                                          Medicare                                  Medicare
                                                                           Claims                         Physicians   Claims                     Physicians
                                                                                          Payments                                  Payments

                            Claims for E/M services billed for by
              1                                                               828,646     $107,652,434         1,669          309       $40,039          259
                            high-coding physicians


                            Claims for E/M services billed for by
              2                                                          368,800,457    $32,211,029,164      440,321          364       $31,468          363
                            other physicians

                  Total                                                  369,629,103    $32,318,681,598      441,990          673       $71,507          622

              Source: OIG analysis of 2010 Part B claims for E/M services, 2014.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                23
                     Table B-2: Sampled Claims for E/M Services by Visit Type and CPT Code,
                     2010

                                                                            Number of         Percentage of
   Visit Type                   CPT Code*       Complexity Level    Sampled Claims for    Sampled Claims for
                                                                         E/M Services          E/M Services

                                    99201                    Low                      1                     0.2%
                                    99202            Medium-Low                       2                     0.3%
   New Patient Office/
                                    99203                Medium                       4                     0.6%
   Outpatient Visit
                                    99204           Medium-High                      20                     3.0%
                                    99205                    High                    21                     3.1%
                                    99211                    Low                      6                     0.9%
                                    99212            Medium-Low                      17                     2.5%
   Established Patient
                                    99213                Medium                      95                   14.1%
   Office/Outpatient Visit
                                    99214           Medium-High                     177                   26.3%
                                    99215                    High                   127                   18.9%
                                    99218                    Low                      0                     0.0%
   Initial Observation Care         99219                Medium                       1                     0.2%
                                    99220                    High                     0                     0.0%
                                    99221                    Low                      2                     0.3%
   Initial Inpatient Hospital
                                    99222                Medium                       4                     0.6%
   Care
                                    99223                    High                    13                     1.9%
                                    99231                    Low                     13                     1.9%
   Subsequent Inpatient
                                    99232                Medium                      48                     7.1%
   Hospital Care
                                    99233                    High                    25                     3.7%
                                    99281                    Low                      0                     0.0%
                                    99282            Medium-Low                       0                     0.0%
   Emergency Department
                                    99283                Medium                       7                     1.0%
   Visit
                                    99284           Medium-High                      14                     2.1%
                                    99285                    High                    38                     5.7%
                                    99304                    Low                      0                     0.0%
   Initial Nursing Facility
                                    99305                Medium                       2                     0.3%
   Care
                                    99306                    High                     1                     0.2%
                                    99307                    Low                      7                     1.0%

   Subsequent Nursing               99308            Medium-Low                      10                     1.5%
   Facility Care                    99309           Medium-High                       4                     0.6%
                                    99310                    High                     3                     0.5%
                                                                                           continued on next page




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)           24
                     Table B-2 (Continued): Sampled Claims for E/M Services by Visit Type and
                     CPT Code, 2010

                                                                                       Number of        Percentage of
   Visit Type                       CPT Code*          Complexity Level        Sampled Claims for   Sampled Claims for
                                                                                    E/M Services         E/M Services

                                          99324                         Low                    0                 0.0%
                                          99325              Medium-Low                        0                 0.0%
   New Patient
   Domiciliary/Rest Home                  99326                    Medium                      0                 0.0%
   Visit
                                          99327              Medium-High                       0                 0.0%
                                          99328                         High                   0                 0.0%
                                          99334                         Low                    0                 0.0%
   Established                            99335              Medium-Low                        1                 0.2%
   Domiciliary/Rest Home
   Visit                                  99336              Medium-High                       0                 0.0%
                                          99337                         High                   2                 0.3%
                                          99341                         Low                    0                 0.0%
                                          99342              Medium-Low                        0                 0.0%
   New Patient Home Visit                 99343                    Medium                      0                 0.0%
                                          99344              Medium-High                       0                 0.0%
                                          99345                         High                   0                 0.0%
                                          99347                         Low                    0                 0.0%

   Established Patient                    99348              Medium-Low                        0                 0.0%
   Home Visit                             99349              Medium-High                       2                 0.3%
                                          99350                         High                   6                 0.9%
      Total                                                                                  673             100.0%**
   *The five character codes and descriptions included in this study are obtained from Current Procedural
   Terminology (CPT®), copyright 2009 by the American Medical Association (AMA). CPT is developed by
   the AMA as a listing of descriptive terms and five character identifying codes and modifiers for reporting
   medical services and procedures. Any use of CPT outside of this study should refer to the most current
   version of the Current Procedural Terminology available from AMA. Applicable FARS/DFARS apply.
   **Column does not sum to 100 percent because of rounding.
   Source: OIG analysis of 2010 Part B claims for E/M services, 2014.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                25
                           Table B-3: Subgroup of Claims for E/M Services by Medical Record Type,
                           2010

                                                                                                    Subset
             Subgroup        Definition
                                                                                                Medicare
                                                                                 Claims                           Physicians
                                                                                                Payments

                             Claims for E/M services documented in
             1                                                                         411            $44,534             377
                             paper medical records


                             Claims for E/M services documented in
             2                                                                         207            $21,448             199
                             electronic medical records

                 Total                                                                 618            $65,982             572*
             *Column sum exceeds total because some physicians had multiple claims in our sample.
             Source: OIG analysis of 2010 Part B claims for E/M services, 2014.




                           Table B-4: Subgroup of Claims for E/M Services by Medical Record
                           Format, 2010

                                                                                                              Claims
Subgroup                 Definition
                                                                                                             Medicare
                                                                                             Claims                        Physicians
                                                                                                             Payments

                         Claims for E/M services formatted with 1995
1                        Documentation Guidelines for Evaluation and Management                     400         $40,928           382
                         Services

                         Claims for E/M services formatted with 1997
2                        Documentation Guidelines for Evaluation and Management                     131         $16,069           123
                         Services


                         Claims for E/M services for which the format of the medical
3                                                                                                    87          $8,985            81
                         record was unable to be determined


     Total                                                                                          618         $65,982          572*
*Column sum exceeds total because some physicians had multiple claims in our sample.
Source: OIG analysis of 2010 Part B claims for E/M services, 2014.




    Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                     26
                   APPENDIX C
                   The Comprehensive Error Rate Testing Program and This
                   Evaluation
                   OIG has performed, and continues to perform, work examining E/M
                   services. In addition, CMS, as part of its CERT program, measures errors
                   in E/M services. The goal of the CERT program is to measure the
                   performance of CMS’s contractors by calculating a paid-claims error rate.
                   CMS bases the rate on the dollar paid after the contractor makes its
                   payment decision on a claim. The paid-claims error rate is a percentage of
                   dollars that contractors erroneously allowed to be paid. In addition to
                   calculating the paid-claims error rate, CMS calculates a provider-
                   compliance error rate and a services-processed error rate.
                   On the other hand, OIG’s objective in this evaluation was to estimate a
                   national paid-claims error rate for E/M services, as well as to compare
                   error rates by stratum and subgroup. This OIG study was not designed to
                   reproduce, or to review, the CERT paid-claims error rate.
                   Because the goals of our review and the CERT program differ, the
                   respective methodologies used to calculate the error rates differ. Our
                   review included the following factors, differentiating it from CMS’s CERT
                   program:
                       	 a stratified sample by physicians’ coding of E/M services and
                       	 subgrouping by medical record type (i.e., the medical record for
                          the sampled claim was paper or electronic) and by medical record
                          format (i.e., the medical record for the sampled claim was
                          formatted using the 1995 or 1997 Documentation Guidelines for
                          Evaluation and Management Services).
                   In addition, there are differences in how the CERT program and OIG
                   report the calculated error rates. As mentioned previously, CMS calculates
                   three different error rates. For the paid-claims error rate and
                   provider-compliance error rate, CMS bases the rate on dollar amounts.
                   For the services-processed error rate, CMS bases the error rate on the
                   number of services. Our review bases the error rate on the number of
                   claims. In addition to calculating the overall fee-for-service error rate,
                   CMS calculates error rates for individual contractors. Our review
                   calculates error rates for the strata and subgroups and projects the error
                   rate nationally, as well as dollars associated with claims paid in error.
                   Although the respective goals and methodologies of our review and the
                   CERT program differ, the error categories in each review are similar.


Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   27
                   CMS groups claims identified as containing improper payments through
                   its CERT program into five categories: no documentation, insufficient
                   documentation, medical necessity, incorrect coding, and “other”
                   (e.g., duplicate payment error, noncovered or unallowable service).
                   Similarly, our review groups claims for E/M services into three categories:
                   no documentation, insufficient documentation, and incorrect coding. Our
                   review did not determine whether E/M services were medically necessary
                   in 2010. We also did not have an “other” category because we did not
                   determine whether E/M services were duplicative, noncovered, or
                   unallowable.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   28
                              APPENDIX D
                              Sample Sizes, Point Estimates, and Confidence Intervals of
                              Claims for Evaluation and Management Services

                              Table D-1: Sample Sizes, Point Estimates, and Confidence Intervals of
                              Incorrectly Coded, Insufficiently Documented, and/or Undocumented
                              Claims for E/M Services, 2010

                                                                           Sample
Estimate Description                                                                    Point Estimate            95-Percent Confidence Interval
                                                                             Size

Gross percentage of incorrectly coded, insufficiently
                                                                               657                 61.3%                                55.0%–67.6%
documented, and/or undocumented claims for E/M services

Gross Medicare payments for incorrectly coded, insufficiently
                                                                               657      $7,869,264,031             $6,095,196,627–$9,643,331,435
documented, and/or undocumented claims for E/M services*

     Percentage of claims for E/M services with multiple
                                                                               657                  6.7%                                   4.1%–9.3%
     (i.e., overlapping) errors

     Medicare payments for claims for E/M services with
                                                                               657      $1,119,607,546               $557,880,415–$1,681,334,677
     overlapping errors

Net percentage of incorrectly coded, insufficiently
                                                                               657                 54.6%                                49.4%–59.7%
documented, and/or undocumented claims for E/M services

Net Medicare payments for incorrectly coded, insufficiently
                                                                               657      $6,749,656,485             $5,222,278,129–$8,277,034,841
documented, and/or undocumented claims for E/M services*

Percentage of Medicare payments for incorrectly coded,
insufficiently documented, and/or undocumented claims for
                                                                               657                 21.4%                                17.0%–25.8%
E/M services of total Medicare payments for E/M services in
2010

*To calculate the payments for claims for E/M services that were miscoded, we subtracted the payment amount for the correct code from the payment

amount for the code on the claim. 

Source: OIG analysis of 2010 E/M medical records, 2014.





        Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                            29
                           Table D-2: Sample Sizes, Point Estimates, and Confidence Intervals of
                           Incorrectly Coded Claims for E/M Services, 2010

                                                               Sample
Estimate Description                                                      Point Estimate         95-Percent Confidence Interval
                                                                 Size


Percentage of incorrectly coded claims for E/M services            657             42.4%                           37.4%–47.6%


Medicare payments for incorrectly coded claims for E/M
                                                                   657    $3,261,643,225         $2,065,237,356–$4,458,049,093
services*

Percentage of Medicare payments for incorrectly coded claims
                                                                   657             10.3%                            6.8%–13.9%
for E/M services of total Medicare payments for E/M services


    Percentage of miscoded claims for E/M services                 657             40.4%                           35.5%–45.6%


    Medicare payments for miscoded claims for E/M
                                                                   657    $2,806,768,770         $1,658,804,226–$3,954,733,313
    services*

       Percentage of miscoded claims for E/M services for
       which the physician used both the 1995 and 1997             301              3.4%                              1.4%–8.0%
       Documentation Guidelines**

       Percentage of upcoded claims for E/M services               657             26.0%                           21.7%–30.7%


         Percentage of miscoded claims for E/M services that
                                                                   293             45.3%                           37.2%–53.7%
         were upcoded by 1 level

         Percentage of miscoded claims for E/M services that
                                                                   293             16.8%                           11.4%–24.0%
         were upcoded by 2 levels

         Percentage of miscoded claims for E/M services that
                                                                   293              0.8%                              0.1%–4.8%
         were upcoded by 3 levels

         Percentage of miscoded claims for E/M services that
                                                                   293            0.004%                           0.001%–5.0%
         were upcoded by 4 levels

       Medicare payments for upcoded claims for E/M
                                                                   657    $4,569,195,340         $3,617,700,452–$5,520,690,228
       services


       Percentage of downcoded claims for E/M services             657             14.5%                           11.2%–18.5%


         Percentage of miscoded claims for E/M services that
                                                                   293             33.5%                           26.1%–41.8%
         were downcoded by 1 level

         Percentage of miscoded claims for E/M services that
                                                                   293              3.6%                             1.5%–8.5%
         were downcoded by 2 levels

         Percentage of miscoded claims for E/M services that
                                                                   293              0.0%                             0.0%–5.0%
         were downcoded by 3 levels

                                                                                                            continued on next page




       Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)        30
                               Table D-2 (Continued): Sample Sizes, Point Estimates, and Confidence
                               Intervals of Incorrectly Coded Claims for E/M Services, 2010

                                                                            Sample
Estimate Description                                                                      Point Estimate             95-Percent Confidence Interval
                                                                              Size

           Percentage of miscoded claims for E/M services
                                                                                 293                  0.0%                                    0.0%–5.0%
           that were downcoded by 4 levels

        Medicare payments for downcoded claims for E/M
                                                                                 657     ($1,762,426,570)         ($2,254,640,000)–($1,270,210,000)
        services

           Percentage of miscoded claims for E/M services
                                                                                 293                 78.8%                                 71.2%–84.8%
           that were upcoded or downcoded by 1 level

     Percentage of claims for E/M services with other coding
                                                                                 657                  2.0%                                    0.9%–4.0%
     errors (e.g., wrong code, unbundling)

     Medicare payments for claims for E/M services with other
                                                                                 657        $454,874,455                   $80,378,029–$829,370,881
     coding errors

Percentage of claims for E/M services for which the correct
                                                                                 657                  2.5%                                    1.3%–4.8%
code was unable to be determined
*To calculate the payments for claims for E/M services that were miscoded, we subtracted the payment amount for the correct code from the payment

amount for the code on the claim. 

**At the time of our review, physicians could use either version of the documentation guidelines, but not a combination of the two, when determining the

appropriate level for an E/M service. For these claims, physicians used the 1997 Documentation Guidelines for an extended history of present illness along

with elements from the 1995 Documentation Guidelines. 

Source: OIG analysis of 2010 E/M medical records, 2014. 





                               Table D-3: Sample Sizes, Point Estimates, and Confidence Intervals of
                               Claims for E/M Services Lacking Documentation, 2010

                                                                            Sample
Estimate Description                                                                      Point Estimate             95-Percent Confidence Interval
                                                                              Size


Percentage of claims for E/M services lacking documentation                      657                 19.0%                                15.2%–23.3%


Medicare payments for claims for E/M services lacking
                                                                                 657      $4,607,620,806             $3,435,418,912–$5,779,822,701
documentation

    Percentage of insufficiently documented claims for E/M
                                                                                 657                 12.0%                                  9.0%–15.8%
    services

    Medicare payments for insufficiently documented claims
                                                                                 657      $2,622,446,473             $1,724,480,895–$3,520,412,050
    for E/M services


    Percentage of undocumented claims for E/M services                           657                  7.0%                                  4.7%–10.1%


    Medicare payments for undocumented claims for E/M
                                                                                 657      $1,985,174,334             $1,162,105,045–$2,808,243,623
    services

Percentage of claims for E/M services with illegible, missing,
                                                                                 657                 13.4%                                10.2%–17.3%
or unacceptable signatures

Source: OIG analysis of 2010 E/M medical records, 2014.




        Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                               31
                               APPENDIX E
                               Sample Sizes, Point Estimates, Confidence Intervals, and
                               Results of Statistical Tests of Claims for Evaluation and
                               Management Services, by Stratum
                               Table E-1: Sample Sizes, Point Estimates, and Confidence Intervals of
                               Claims for E/M Services by Stratum, 2010

                                                                             Sample
Estimate Description                                                                        Point Estimate        95-Percent Confidence Interval
                                                                               Size

Percentage of incorrectly coded claims for E/M services billed
                                                                                  298                  56.4%                       50.7%–61.9%
for by high-coding physicians

    Percentage of miscoded claims for E/M services that were
                                                                                  156                  99.4%                       95.6%–99.9%
    upcoded by high-coding physicians

    Percentage of miscoded claims for E/M services that were
                                                                                  156                   0.6%                         0.1%–4.4%
    downcoded by high-coding physicians

Medicare payments for incorrectly coded claims for E/M
                                                                                  298           $26,027,127             $22,518,898–$29,535,356
services billed for by high-coding physicians

Percentage of Medicare payments for incorrectly coded claims
of total Medicare payments for claims for E/M services billed                     298                  25.1%                       21.9%–28.2%
for by high-coding physicians

Average inappropriate Medicare payment per high-coding
                                                                                  298                $15,594                    $13,492–$17,696
physician for incorrectly coded claims for E/M services

Percentage of claims for E/M services billed for by other
                                                                                  359                  42.3%                       37.3%–47.5%
physicians that were incorrectly coded

    Percentage of miscoded claims for E/M services that were
                                                                                  145                  64.1%                       56.0%–71.5%
    upcoded by other physicians

    Percentage of miscoded claims for E/M services that were
                                                                                  145                  35.9%                       28.5%–44.0%
    downcoded by other physicians

Medicare-allowed amounts for claims for E/M services billed
                                                                                  359       $3,235,616,097        $2,037,378,284–$4,433,853,911
for by other physicians that were incorrectly coded

Percentage of Medicare-allowed amounts for incorrectly
coded claims of total Medicare-allowed amounts for claims for                     359                  10.3%                        6.8%–13.8%
E/M services billed for by other physicians

Average inappropriate Medicare payment per other physician
                                                                                  359                 $7,348                     $4,627–$10,070
for incorrectly coded claims for E/M services

Percentage of insufficiently documented claims for E/M
                                                                                  298                  19.5%                       15.3%–24.4%
services billed for by high-coding physicians

Percentage of insufficiently documented claims for E/M
                                                                                  359                  12.0%                        9.0%–15.8%
services billed by other physicians

Percentage of undocumented claims for E/M services billed
                                                                                  298                   4.7%                         2.8%–7.8%
for by high-coding physicians*

Percentage of undocumented claims for E/M services billed
                                                                                  359                   7.0%                        4.7%–10.1%
for by other physicians*
*The difference between these error rates was not statistically significant at the 95-percent confidence level.
Source: OIG analysis of 2010 E/M medical records, 2014.




       Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                        32
                   Table E-2: Sample Sizes, Point Estimates, and Confidence Intervals of Upcoded and Downcoded Claims for E/M
                   Services by Stratum, 2010

                                                                                   High-Coding Physicians                                         Other Physicians
                  Estimate Description
                                                                        Sample            Point               95-Percent            Sample           Point           95-Percent
                                                                          Size         Estimate       Confidence Interval             Size        Estimate   Confidence Interval

                                                      By 4 levels*           156            1.3%                 0.3%–5.0%             137           0.0%             0.0%–1.0%



                                          Upcoded
                                                      By 3 levels            156            9.6%               5.9%–15.4%              137           0.7%             0.1%–5.0%

                                                      By 2 levels*           156          23.1%               17.1%–30.3%              137          16.8%            11.4%–24.0%
                  Percentage of
                  miscoded
                  claims for                          By 1 level             156          65.4%               57.6%–72.4%              137          45.3%            37.1%–53.7%
                  E/M services
                  that were                           By 1 level             156            0.6%                 0.1%–4.4%             137          33.6%            26.2%–41.9%
                  upcoded or
                                          Downcoded




                  downcoded
                                                      By 2 levels            156            0.0%                 0.0%–1.2%             137           3.6%             1.5%–8.5%

                                                      By 3 levels*           156            0.0%                 0.0%–1.2%             137           0.0%             0.0%–1.0%

                                                      By 4 levels*           156            0.0%                 0.0%–1.2%             137           0.0%             0.0%–1.0%

                  *The difference between these error rates was not statistically significant at the 95-percent confidence level.
                  Source: OIG analysis of 2010 E/M medical records, 2014.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                                    33
                        Table E-3: Results of Independent Group T-Tests for Claims for E/M
                        Services by Stratum, 2010

                                                                                                            Point
Description                                                                          Stratum                                      P-Value
                                                                                                        Estimates

Difference in percentage of incorrectly coded claims for E/M                    High-Coding                 56.4%
                                                                                                                                    0.0003
services, by stratum                                                                    Other               42.3%

   Difference in percentage of miscoded claims for E/M                          High-Coding                  99.4%
                                                                                                                                   <0.0001
   services that were upcoded, by stratum                                               Other                64.1%

       Difference in percentage of miscoded claims for E/M                      High-Coding                 65.4%
                                                                                                                                    0.0005
       services that were upcoded by 1 level, by stratum
                                                                                        Other               45.3%

                                                                                High-Coding                  23.1%
       Difference in percentage of miscoded claims for E/M
                                                                                                                                    0.1817
       services that were upcoded by 2 levels, by stratum
                                                                                        Other                16.8%

                                                                                High-Coding                   9.6%
       Difference in percentage of miscoded claims for E/M
                                                                                                                                    0.0004
       services that were upcoded by 3 levels, by stratum
                                                                                        Other                 0.7%


       Difference in percentage of miscoded claims for E/M                      High-Coding                   1.3%
                                                                                                                                    0.1580
       services that were upcoded by 4 levels, by stratum
                                                                                        Other                 0.0%

   Difference in percentage of miscoded claims for E/M                          High-Coding                   0.6%
                                                                                                                                   <0.0001
   services that were downcoded, by stratum                                             Other               35.9%

                                                                                High-Coding                   0.6%
       Difference in percentage of miscoded claims for E/M
                                                                                                                                   <0.0001
       services that were downcoded by 1 level, by stratum
                                                                                        Other                33.6%

                                                                                High-Coding                   0.0%
       Difference in percentage of miscoded claims for E/M
                                                                                                                                    0.0248
       services that were downcoded by 2 levels, by stratum
                                                                                        Other                 3.6%

                                                                                High-Coding                   0.0%
       Difference in percentage of miscoded claims for E/M
                                                                                                                                         --*
       services that were downcoded by 3 levels, by stratum
                                                                                        Other                 0.0%


       Difference in percentage of miscoded claims for E/M                      High-Coding                   0.0%
                                                                                                                                         --*
       services that were downcoded by 4 levels, by stratum
                                                                                        Other                 0.0%

Difference in percentage of insufficiently documented claims                    High-Coding                  19.5%
                                                                                                                                    0.0093
for E/M services, by stratum                                                            Other                12.0%

Difference in percentage of undocumented claims for E/M                         High-Coding                   4.7%
                                                                                                                                    0.2139
services, by stratum
                                                                                        Other                 7.0%
*No claims in our sample were downcoded by 3 or 4 levels. As a result, these point estimates were the same and the difference between these

error rates was not statistically significant.

Source: OIG analysis of 2010 E/M medical records, 2014.





  Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                            34
                                APPENDIX F
                                Sample Sizes, Point Estimates, Confidence Intervals, and
                                Results of Statistical Tests of Claims for Evaluation and
                                Management Services, by Subgroups

                                Table F-1: Sample Sizes, Point Estimates, and Confidence Intervals of
                                Claims for E/M Services by Medical Record Type, 2010

                                                                               Sample
Estimate Description                                                                          Point Estimate         95-Percent Confidence Interval
                                                                                 Size

Percentage of claims for E/M services documented in paper
                                                                                    618                  64.1%                        58.8%–69.1%
medical records


Percentage of claims for E/M services documented in
                                                                                    618                  35.9%                        30.9%–41.2%
electronic medical records


Percentage of incorrectly coded claims for E/M services
                                                                                    411                  44.0%                        37.5%–50.7%
documented in paper medical records*


Percentage of incorrectly coded claims for E/M services
                                                                                    207                  48.3%                        39.5%–57.3%
documented in electronic medical records*


Percentage of insufficiently documented claims for E/M
                                                                                    411                  14.5%                        10.4%–19.9%
documented in paper medical records*


Percentage of insufficiently documented claims for E/M
                                                                                    207                  10.0%                         5.8%–16.8%
services documented in electronic medical records*

*The difference between these error rates was not statistically significant at the 95-percent confidence level.
Source: OIG analysis of 2010 E/M medical records, 2014.




                                Table F-2: Results of Chi-Square Tests for Claims for E/M Services by
                                Medical Record Type, 2010

                                                                                       Medical Record                 Point
      Description                                                                                                                     P-Value
                                                                                                 Type             Estimates

                                                                                                   Paper             44.0%
      Difference in percentage of incorrectly coded claims, by
                                                                                                                                       0.4405
      medical record type
                                                                                               Electronic            48.3%

                                                                                                   Paper             14.5%
      Difference in percentage of insufficiently documented claims,
                                                                                                                                       0.2382
      by medical record type
                                                                                               Electronic            10.0%

      Source: OIG analysis of 2010 E/M medical records, 2014.




        Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                         35
                                Table F-3: Sample Sizes, Point Estimates, and Confidence Intervals of
                                Claims for E/M Services by Medical Record Format, 2010

                                                                               Sample
Estimate Description                                                                          Point Estimate         95-Percent Confidence Interval
                                                                                 Size

Percentage of claims for E/M services formatted with 1995
Documentation Guidelines for Evaluation and Management                              618                  72.1%                        67.1%-76.7%
Services

Percentage of claims for E/M services formatted with 1997
Documentation Guidelines for Evaluation and Management                              618                  16.5%                        12.9%-20.9%
Services

Percentage of claims for E/M services for which the format of
                                                                                    618                  11.4%                         8.4%-15.3%
the medical record was unable to be determined


Percentage of incorrectly coded claims for E/M services
                                                                                    400                  43.2%                        37.1%-49.5%
formatted with 1995 Documentation Guidelines*


Percentage of incorrectly coded claims for E/M services
                                                                                    131                  52.7%                        39.6%-65.4%
formatted with 1997 Documentation Guidelines*


Percentage of insufficiently documented claims for E/M
                                                                                    400                    9.1%                        6.1%–13.5%
services formatted with 1995 Documentation Guidelines*


Percentage of insufficiently documented claims for E/M
                                                                                    131                    5.5%                        1.8%–15.6%
services formatted with 1997 Documentation Guidelines*

*The difference between these error rates was not statistically significant at the 95-percent confidence level.
Source: OIG analysis of 2010 E/M medical records, 2014.




                                Table F-4: Results of Chi-Square Tests for Claims for E/M Services by
                                Medical Record Format, 2010

                                                                                      Medical Record                  Point
      Description                                                                                                                     P-Value
                                                                                              Format              Estimates

                                                                                                    1995             43.2%
      Difference in percentage of incorrectly coded claims for E/M
                                                                                                                                       0.2002
      services, by medical record format
                                                                                                    1997             52.7%

                                                                                                    1995              9.1%
      Difference in percentage of insufficiently documented claims
                                                                                                                                       0.3743
      for E/M services, by medical record format
                                                                                                    1997              5.5%

      Source: OIG analysis of 2010 E/M medical records, 2014.




        Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                         36
                  APPENDIXG
                  Agency Comments



                DEPARTMENT OF HEALTH ,'ic HUMAf\i SERVICES                              Cenws ror Medicare & Medicaid Serv.ces


                                                                                        A.ilmiuistrator
                                                                                        Wash•ngton, DC 20201




              OATE:         APR -8 Z014

              TO: 	          Daniel R. Levinson
                             Inspector C1eneral
                                                /S/
              FROM: 	        ~aiilyn Tavenner
                             Adn1inisttaJor

              SUBJECT: 	 Office of Inspector General (01C1) Drafi Report: Improper Payments for
                         Evaluation and Management Services Cost Medicare Billions in 20 I 0 (OU-04­
                             10-00181)


              Thank you tor the opportunity to review and comment on the ahov..: subject O!Ci draft report.
              The Centers for Medicare & Medicaid Services (CMS) appreciates th~: time and r..:sources that
              OIG used to review these important services. OICJ's report identiftes and addresses improper
              hilling and payments for Part B services relating to evaluation and management (ElM) services
              in 2010. OIG 's study reports that in 2010, Medicare inappropriately paid $6.7 billion for claims
              for E/M services that were incorrectly coded and/or lacking documentation, representing 21
              percent or Medicare payments for E/M services that year. Incorrectly coded claims included
              both up coding (26 percent) and clown coding ( 14.5 percent). Additionally, O!G found that high­
              coding physicians' claims were more likely to be incorrectly coded or insufficiently documented
              than other physicians' claims. We are working to lurther reduce these improper payments
              through a combination of education and medical review activities.

              The 010 recommendations and CMS responses to those rewmmendations arc discussed below.

              OIG Recommendation

              The 010 recommends that CMS consolidate the 1995 and 1997 Docunwnt:uion Guidelines [(,)r
              Evaluation and Management Services.

              C~S     Response

              The CMS docs not concur with the recommendation that we ~:onsolidate the 1995 and 1997
              documentation guidelines. In December 2010. CMS issued the Evaluation and tvlanagement
              Guide that is designed to provide education on evaluation and managemern services. It includes
              inlon11ation on medical record document8tion. billing and coding considerations. as well as
              inf(mllation on the 1995 and 1997 documentation guidclint!s. Additionally. we recently made
              available via the Ov!S website. h!.\J2:/Iwww.cms.gov/Outreach-and-Education(Mcdic.m:~:
              I eaminn-N,etwork-;'vlLN/MLNl;dWeh~)uideiEMIJO(jllml, a "Frequ.:nlly Asked Questions"
              document that emphasizes the ability to use the 1995 or 1997 guidelines lor an extended his10ry




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)                        37
Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   38
Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   39
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Rachel Bessette served as the lead analyst for this study. Other principal
                   Office of Evaluation and Inspections staff from the Atlanta regional office
                   who contributed to the report include Michelle Verges. Central office staff
                   who provided support include Kevin Farber, Althea Hosein,
                   Kevin Manley, and Christine Moritz.




Improper Payments for Evaluation and Management Services Cost Medicare Billions in 2010 (OEI-04-10-00181)   40
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
